Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 1

FILED
United States Court of Appes
Tenth Circuit

PUBLISH

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

April 7, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
No. 19-4008
(D.C. No. 2:16-CR-00266-JNP-1)
(D. Utah)

v.
JOHN ELISHA MAYVILLE,
Defendant - Appellant.

Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:16-CR-00266-JNP-1)

Bretta Pine, Assistant Federal Public Defender (Scott Keith Wilson, Federal Public
Defender, with her on the brief), Salt Lake City, Utah, for Defendant-Appellant.
Stewart M. Young, Assistant United States Attorney (John W. Huber, United States
Attorney, with him on the brief), Salt Lake City, Utah, for Plaintiff-Appellee.

Before BACHARACH, BALDOCK, and MURPHY, Circuit Judges.

BALDOCK, Circuit Judge.
Defendant-Appellant John Elisha Mayville pleaded guilty to possession of
methamphetamine with intent to distribute in violation of 21 U.S.C. § 841(a)(1) and
possession of an unregistered firearm silencer in violation of 26 U.S.C. § 5861(d).
Exercising his right under the plea agreement, Defendant challenges the district court’s
APPENDIX A

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 2

denials of his motions to suppress evidence of drugs and firearms seized from his car
by Utah Highway Patrol troopers during a traffic stop. On appeal, Defendant argues
the troopers violated his Fourth Amendment rights described in Rodriguez v. United
States, 575 U.S. 348 (2015), because they unjustifiably prolonged the traffic stop
beyond the time needed to complete the tasks incident to the stop’s mission.
Our jurisdiction arises under 28 U.S.C. § 1291, and we affirm. The Supreme
Court’s decision in Rodriguez constrains what law enforcement officers may do during
a routine traffic stop in the absence of additional reasonable suspicion. But Rodriguez
does not require courts to second-guess the logistical decisions of officers so long as
their actions were reasonable and diligently completed within the confines of a lawful
traffic stop. This is because reasonableness—rather than efficiency—is the touchstone
of the Fourth Amendment. Because the traffic stop here did not exceed the time
reasonably required to execute the tasks relevant to accomplishing the mission of the
stop, Defendant s nineteen-minute roadside detention accorded with the Fourth
Amendment s dictates. Thus, the district court did not err in denying Defendant’s
motions to suppress.
I.
Around 1.45 a.m. on May 6, 2016, Utah Highway Patrol Trooper Jason Tripodi
stopped a red Audi for traveling 71 m.p.h. in a 60-m.p.h. zone, in violation of state
law. After the Audi came to a stop, Trooper Tripodi observed the driver hunched over
in the vehicle as if he was “trying to stash something or hide something.” Trooper

2

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 3

Tripodi approached the Audi and spoke with Defendant, who was the driver and sole
occupant of the vehicle, about his speeding.
During this initial interaction, which lasted about six minutes, Defendant
informed Trooper Tripodi he was traveling to Grand Junction, Colorado, from Lake
Havasu, Arizona. Trooper Tripodi asked for Defendant’s license, registration, and
proof of insurance. While Defendant searched for these documents, Trooper Tripodi
noticed Defendant had trouble finding the requested paperwork. After several minutes,
Defendant provided his out-of-state driver’s license to Trooper Tripodi, but he was
unable to produce any registration documents for the vehicle.
According to Trooper Tripodi, Defendant “seemed confused” and “wasn’t able
to multitask like a normal individual would be able to” during this initial interaction.
Trooper Tripodi also observed that Defendant seemed like he “was drowsy, or
something was wrong, something was up.” Based on these observations, Trooper
Tripodi asked Defendant if he “was okay” multiple times. Trooper Tripodi asked
Defendant to accompany him to the patrol car to chat while he filled out the paperwork
for the stop. Defendant declined this invitation and remained in his vehicle.
Around 1:52 a.m., seven minutes after the stop began, Trooper Tripodi returned
to his patrol car and began filling out paperwork for the stop. He also radioed dispatch
to run a records check on Defendant, which consisted of two components. First,
Trooper Tripodi asked dispatch to run Defendant’s license and check for warrants.
Second, the trooper requested Defendant’s criminal history through the Interstate
Identification Index, commonly referred to as a Triple I check. After radioing dispatch
3

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 4

for the records, but before dispatch returned the results, Trooper Tripodi requested a
narcotic detector dog.

He then continued working on the citation, including

“attempting to figure out whose vehicle it was because [Defendant] ha[d] no
registration paperwork.”
At approximately 1:59 a.m., Trooper Scott Mackleprang arrived at the scene
with his narcotic detector dog, Hasso. At this point, Trooper Tripodi backed up his
patrol car because he anticipated possibly “run[ning] through sobriety tests or
something like that at a later point in the stop.” After briefly speaking with Trooper
Tripodi, who remained in his patrol car and continued to work on the citation, Trooper
Mackleprang asked Defendant to exit the vehicle so he could screen it with Hasso.
Because Defendant refused, Trooper Mackleprang requested Trooper Tripodi’s
assistance. Trooper Mackleprang observed that Defendant was “real slow to answer”
and had delayed reactions, “almost like a blank stare,” which caused him to suspect
Defendant was impaired. Defendant ultimately exited the vehicle, and Trooper Tripodi
patted him down for weapons.
Trooper Tripodi then stood with Defendant on the side of the road while Trooper
Mackleprang had Hasso conduct a free-air sniff around the car. At approximately 2:05
a.m., Hasso alerted to the odor of narcotics in the vehicle. And less than thirty seconds
later, dispatch responded to Trooper Tripodi’s records request with information
indicating Defendant had a criminal record. The entirety of the traffic stop, from
Trooper Tripodi s initial contact with Defendant to Hasso’s alert, lasted approximately
nineteen minutes.
4

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 5

The subsequent search of Defendant’s vehicle revealed a methamphetamine pipe
under the driver’s seat and two guns, one equipped with a silencer, in the engine
compartment. In the trunk, the troopers found roughly a pound of methamphetamine,
an ounce of heroin, and a scale. After discovering the guns and drugs, the troopers
placed Defendant under arrest.
The grand jury indicted Defendant for possession of methamphetamine with
intent to distribute, possession of heroin with intent to distribute, possession of an
unregistered firearm silencer, and being a felon in possession of a firearm. Defendant
filed two motions to suppress in the district court, asserting several grounds for
suppressing the evidence seized during the traffic stop. As relevant here, he moved to
suppress evidence of the drugs and firearms as fruit of an unlawful seizure under the
Fourth Amendment. Specifically, Defendant argued Trooper Tripodi’s unreasonable
extension of the traffic stop resulted in the dog sniff and subsequent search of his
vehicle.
After evidentiary hearings and oral arguments, the district court found the
troopers testified credibly and concluded Trooper Tripodi’s decision to run a Triple I
check through dispatch did not unconstitutionally extend the traffic stop.
Alternatively, the district court held the troopers possessed reasonable suspicion to
prolong the traffic stop to determine whether Defendant was impaired. The district
court accordingly denied Defendant’s motions to suppress.
Defendant later entered a conditional guilty plea, reserving the right to appeal
the district court’s denials of his motions to suppress. The district court accepted the
5

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 6

plea and sentenced Defendant to 126 months’ imprisonment. Exercising his right to
challenge the denials of his suppression motions, Defendant timely filed his notice of
appeal.
II.
“When reviewing the denial of a motion to suppress, we view the evidence in
the light most favorable to the government, accept the district court’s findings of fact
unless they are clearly erroneous, and review de novo the ultimate question of
reasonableness under the Fourth Amendment.” United States v. McNeal, 862 F.3d
1057, 1061 (10th Cir. 2017) (quoting United States v. Lopez, 849 F.3d 921, 925 (10th
Cir. 2017)). Defendant does not contest the legality of the initial traffic stop. Rather,
he contends the troopers’ actions—namely, Trooper Tripodi’s decision to run a Triple
I criminal-history check—were unrelated to the mission of the traffic stop and extended
its duration in violation of the Fourth Amendment. We disagree with Defendant’s
arguments.
A.
A traffic stop, even if brief and for a limited purpose, constitutes a “seizure”
under the Fourth Amendment and is subject to review for reasonableness. Whren v.
United States, 517 U.S. 806, 809-10 (1996). To be reasonable, a “traffic stop must be
justified at its inception and, in general, the officer’s actions during the stop must be
reasonably related in scope to ‘the mission of the stop itself.’” United States v. Cone,
868 F.3d 1150, 1152 (10th Cir. 2017) (quoting Rodriguez, 575 U.S. at 356). Because
Defendant does not contend the traffic stop was unjustified at its inception, our analysis
6

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 7

is limited to whether the stop’s “manner of execution unreasonably infringe[d]” upon
Defendant’s Fourth Amendment rights. Illinois v. Caballes, 543 U.S. 405, 407 (2005).
An officer’s authority to seize a driver “ends when tasks tied to the traffic
infraction are—or reasonably should have been—completed.” Rodriguez, 575 U.S. at
354. Officers may not prolong a stop beyond that point for the purpose of detecting
evidence of ordinary criminal wrongdoing unless separate reasonable suspicion exists
to justify further investigation. Id. at 354-55. Even de minimis delays caused by
unrelated inquiries violate the Fourth Amendment. Id. at 355-57.
Defendant argues Trooper Tripodi unlawfully extended the stop because the
Triple I criminal-history check had no relation to his speeding—the traffic infraction
at issue—and is not one of the ordinary inquiries allowed under Rodriguez. But, as
Rodriguez explained, an officer’s mission during a traffic stop is both “to address the
traffic violation that warranted the stop and attend to related safety concerns.” Id. at
354 (emphasis added and citations omitted).

To be sure, this mission “includes

ordinary inquiries incident to” the traffic stop, which typically involve inspecting the
driver’s license, verifying the vehicle’s registration and insurance coverage, and
checking for any outstanding warrants against the driver.

Id. at 355.

Because,

however, “[t]raffic stops are ‘especially fraught with danger to police officers,’” id. at
356 (citation omitted), the Court has also included “negligibly burdensome” inquiries
an officer needs to make “to complete his mission safely” among permissible actions
incident to a traffic stop. Id. As Rodriguez explained, “[T]he government’s officer
safety interest stems from the mission of the stop itself.” Id.
7

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 8

This court has routinely permitted officers to conduct criminal-history checks
during traffic stops in the interest of officer safety. See, e.g., United States v. Burleson,
657 F.3d 1040, 1046 (10th Cir. 2011) (“[A]n officer may run a background check on a
motorist to check for warrants or criminal history even though the purpose of the stop
had nothing to do with the motorist’s history.”); United States v. Rice, 483 F.3d 1079,
1084 (10th Cir. 2007) (“While a traffic stop is ongoing ... an officer has wide
discretion to take reasonable precautions to protect his safety. Obvious precautions
include running a background check on the driver . . .(citations omitted)). Notably,
in Rodriguez, the Court cited with approval our decision in United States v. Holt, 264
F.3d 1215, 1221—22 (10th Cir. 2001) (en banc), overturned on other grounds by
Muehler v. Mena, 544 U.S. 93 (2005), as an example of a proper inquiry during a traffic
stop. Rodriguez, 575 U.S. at 356; see also Cone, 868 F.3d at 1153 (recognizing
approval of Holt in Rodriguez and concluding an officer may reasonably ask questions
about a driver’s criminal history during a routine traffic stop). Our Holt decision, the
Court ably noted, “recogniz[ed] [an] officer safety justification for criminal record and
outstanding warrant checks.” Rodriguez, 575 U.S. at 356. Thus, an officer’s decision
to run a criminal-history check on an occupant of a vehicle after initiating a traffic stop
is justifiable as a “negligibly burdensome precaution” consistent with the important
governmental interest in officer safety.1

1 Several of our sister circuits have likewise concluded, post -Rodriguez, that an
officer may conduct a criminal-history check as part and parcel of the mission of a
traffic stop. See, e.g., United States v. Dion, 859 F.3d 114, 127 n.ll (1st Cir. 2017)
(“[T]he Supreme Court has characterized a criminal-record check as a ‘negligibly
8

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 9

B.
Consistent with Rodriguez and circuit precedent, Trooper Tripodi was entitled
to inquire into Defendant’s criminal record during the traffic stop. But the question
remains whether the troopers’ conduct, including Trooper Tripodi’s decision to request
a Triple I check through dispatch rather than conduct the criminal-history check on the
computer in his patrol car, was reasonable under the circumstances. See United States
v. Windom, 863 F.3d 1322, 1327 (10th Cir. 2017) (“The touchstone of our analysis
under the Fourth Amendment is always ‘the reasonableness in all the circumstances of
the particular governmental invasion of a citizen’s personal security.’”) (citation
omitted). Defendant argues it was not. Again, we disagree.
To repeat, an officer’s authority to seize a motorist “ends when tasks tied to the
traffic infraction are—or reasonably should have been—completed.” Rodriguez, 575
U.S. at 354. Thus, even ordinary inquiries incident to a traffic stop and permissible
safety precautions must be completed within a reasonable amount of time. Id. at 357.
In determining whether the duration of a traffic stop was reasonable, we consider

burdensome precaution’ that may be necessary in order to complete the mission of the
traffic stop safely.”) (quoting Rodriguez, 575 U.S. at 356)); United States v. Palmer,
820 F.3d 640, 651 (4th Cir. 2016) (“A police officer is entitled to inquire into a
motorist’s criminal record after initiating a traffic stop.”); United States v. Sanford,
806 F.3d 954, 956 (7th Cir. 2015) (“The trooper checked the occupants’ criminal
history on the computer in his car—a procedure permissible even without reasonable
suspicion.”); United States v. Frierson, 611 F. App’x 82, 85 (3d Cir. 2015)
(unpublished) (“Upon initially detaining the men, [the officer] reasonably addressed
the traffic violation that warranted the stop and attended to safety concerns. For
example, any preliminary delay in checking [the driver’s] license, registration, and
criminal history was justified as part of the stop.”).
9

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 10

whether the officers diligently pursued the mission of the stop. Id. Accordingly,
officers may not undertake, safety precautions for the purpose of lengthening the stop
to allow for investigation of unrelated criminal activity. Id. at 356.
With these principles in mind, and objectively considering the totality of the
circumstances, we turn to examine Trooper Tripodi’s decision to run a Triple I check.
As explained above, an officer is permitted to run a criminal-history check as a safety
precaution during a traffic stop so long as the check does not unreasonably prolong the
stop. See id.\ Holt, 264 F.3d at 1221-22. We see no reason to apply a different rule
simply because an officer elects to conduct a Triple I check through dispatch rather
than research a motorist’s criminal history on the computer in his patrol car. See United
States v. McRae, 81 F.3d 1528, 1536 n.6 (10th Cir. 1996) (indicating, in dicta, it is
reasonable for officers to run Triple I checks through dispatch as part of a routine
traffic stop); see also United States v. Hill, 852 F.3d 377, 380, 383 (4th Cir. 2017)
(holding, in the context of a twenty-minute stop, officers reasonably may search an
additional database for criminal history even though it “can be a lengthy process”).
Defendant argues the Triple I check unlawfully extended the traffic stop because
Trooper Tripodi would have completed the stop sooner if he had confined himself to
checking records via the computer in his patrol vehicle. The problem with Defendant’s
argument is twofold. First, the district court made a factual finding that the Triple I
check did not extend the time period of the stop, and Defendant has not identified any
evidence demonstrating the court’s finding was clearly erroneous. Defendant points
to evidence showing it took less than a minute for Trooper Tripodi’s onboard computer
10

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 11

to return information that showed Defendant had a valid license, his car was insured,
and the car was registered—though not to Defendant. But such a comparison is
irrelevant to our analysis. As defense counsel conceded at oral argument, nothing in
the record indicates how long it would have taken Trooper Tripodi to conduct either a
criminal-history inquiry or warrants check on the computer in his patrol car.
Second, even if the Triple I check extended the duration of the stop, Trooper
Tripodi’s request for criminal-history records through dispatch was not unreasonable
as a matter of law. Trooper Tripodi, who the district court deemed credible, testified
that he conducted the Triple I check through dispatch because the computer in his
patrol car provides limited information, especially with respect to out-of-state drivers.
The record plainly shows Defendant provided an out-of-state license and was driving
an out-of-state vehicle. Moreover, Trooper Tripodi developed concerns based on
Defendant’s apparent stashing of something under the driver’s seat, Defendant’s
demeanor during their initial six-minute interaction, and Defendant’s inability to
provide registration paperwork for the vehicle. Given these circumstances, Trooper
Tripodi’s decision to run a Triple I check through dispatch—as opposed to limiting his
records check to the computer in his patrol car—did not unreasonably prolong the stop.
Although Trooper Tripodi could have executed the traffic stop without running
the records check through dispatch, and instead relied exclusively on the information
available on the computer in his patrol car, his actions did not violate Defendant’s
Fourth Amendment rights.

As the Court has repeatedly admonished, the Fourth

Amendment does not require officers to use the least intrusive or most efficient means
11

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 12

conceivable to effectuate a traffic stop. United States v. Sharpe, 470 U.S. 675, 687
(1985) (“The question is not simply whether some other alternative was available, but
whether the police acted unreasonably in failing to recognize or to pursue it.”). While
we can imagine other situations in which an officer’s decision to run a Triple I check
through dispatch would unreasonably prolong a traffic stop, that is not the case here.
The evidence in this case shows the troopers acted reasonably diligent in executing the
tasks incident to the traffic stop, and their actions did not unlawfully extend the stop
beyond the pursuit of the stop’s mission.2
In sum, the district court determined dispatch responded to Trooper Tripodi’s
records request shortly after Hasso alerted to the presence of narcotics in Defendant’s
vehicle. Defendant has not shown, and we have not found, evidence in the record
demonstrating this factual finding was clearly erroneous. Because the dog sniff and
alert were contemporaneous with the troopers’ reasonably diligent pursuit of the stop’s

2 Approximately twelve minutes passed between the time Trooper Tripodi
returned to his patrol car after his initial interaction with Defendant and when Hasso
alerted to the odor of narcotics in the vehicle. During this period, Trooper Tripodi
radioed dispatch for records, worked on filling out paperwork for the stop, backed up
his vehicle to possibly perform sobriety tests, assisted Trooper Mackleprang after
Defendant refused to exit his vehicle, patted down Defendant for weapons, and further
questioned Defendant outside of the vehicle during the dog sniff. Before Trooper
Mackleprang arrived on the scene, Trooper Tripodi can be heard on his dash cam
asking a voice-activated google device about Lake Havasu, Arizona. Defendant argues
this shows Trooper Tripodi sat idle rather than performing the tasks incident to the
traffic stop. The district court, however, credited Trooper Tripodi’s testimony that
during this time he was also filling out paperwork for the citation and attempting to
figure out ownership of the vehicle. Defendant does not attempt to show this factual
finding was clearly erroneous. Based on the record before us, none of the trooper’s
individual actions suggest a lack of diligence in pursuing the mission of the stop.
12

Appellate Case: 19-4008

Document: 010110330122

Date Filed: 04/07/2020

Page: 13

mission, the subsequent search of Defendant’s vehicle and discovery of evidence did
not violate his Fourth Amendment rights. The district court, therefore, properly denied
Defendant’s motions to suppress.3
* * *

For the foregoing reasons, the judgment of the district court is AFFIRMED.

3 Because Trooper Tripodi did not unconstitutionally extend the traffic stop by
conducting the Triple I check through dispatch, we need not consider whether the
troopers possessed reasonable suspicion to prolong the stop to investigate Defendant’s
potential impairment. We also summarily dispose of Defendant’s meritless argument
that the troopers acted unreasonably in removing Defendant from his vehicle during
the traffic stop. See Maryland v. Wilson, 519 U.S. 408, 413-15 (1997) (reaffirming
rule that an officer may order a driver out of a vehicle during a traffic stop for officer
safety reasons); Holt, 264 F.3d at 1222 (explaining an officer “may order the driver
and passengers out of the vehicle in the interest of officer safety, even in the absence
of any particularized suspicion ofpersonal danger”) (emphasis added).
13

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF UTAH

UNITED STATES OF AMERICA,
Plaintiff,
vs.
JOHN ELISHA MAYVILLE,

Case No. 2:16-CR-266 JNP
MEMORANDUM DECISION AND
ORDER DENYING DEFENDANT’S
SECOND MOTION TO SUPPRESS
District Judge Jill N. Parrish

Defendant.

After the court denied defendant John Elisha Mayville’s first motion to suppress
evidence, he filed a second motion to suppress. In his second motion, he argues that the drug and
firearm evidence that officers discovered in his car should be suppressed pursuant to the Fourth
Amendment, the Utah Government Records Access and Management Act (GRAMA), and the
Privileges and Immunities Clause. The court concludes that the search of Mayville's car did not
violate any of these constitutional or statutory provisions. The court therefore DENIES his
motion to suppress.
FINDINGS OF FACT
1. On May 6, 2016, Trooper Jason Tripodi stopped a red Audi for going 71 miles-per-hour
in a 60 miles-per-hour zone.
2. Trooper Tripodi approached the vehicle, made contact with Mayville, and spoke to him
about his speeding. Mayville stated that he was travelling to Grand Junction, Colorado,
from Lake Havasu, Arizona.

APPENDIX B

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 2 of 14

3. Trooper Tripodi’s initial contact with Mayville lasted a couple of minutes. During this
initial contact, Trooper Tripodi asked for Mayville’s license, registration, and proof of
insurance. While Mayville searched for these documents, Trooper Tripodi observed that
(

he “had a lot of trouble coming up with that requested paperwork.” Trooper Tripodi
noted that the length of time he spent at the passenger side window was due to Mayville
searching for the paperwork. Trooper Tripodi observed that Mayville seemed like he
“was drowsy, or something was wrong, something was up.” Mayville “seemed confused
almost” and Trooper Tripodi noticed that Mayville “wasn’t able to multitask like a
normal individual would be able to.”

Trooper Tripodi asked Mayville on multiple

occasions if he was okay, based on his interaction with him.
4. Trooper Tripodi became concerned that Mayville may have been impaired or drowsy.
5. Trooper Tripodi asked Mayville if he would mind coming back to his vehicle to talk to
him while he filled out his paperwork. Mayville declined this invitation.
6. Trooper Tripodi returned to his vehicle and began filling out the paperwork for the stop.
He also radioed dispatch in order to run a records check on Mayville. The records check
consisted of two main components. First, Trooper Tripodi requested that dispatch run his
license and check for warrants. Second, he requested a criminal record check through the
Interstate Identification Index, which is commonly called a triple-I check. Trooper
Tripodi conducted this check through dispatch because UHP computers only provide
• limited information.
7. About a minute later, Trooper Tripodi also radioed for a narcotic detector dog and
handler.

Page 2 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 3 of 14

8. After radioing dispatch for records and for a narcotic detector dog, Trooper Tripodi
continued filling out the citation, including “attempting to figure out whose vehicle it was
because [Mayville] had no registration paperwork.”
9. Approximately four minutes later, prior to dispatch returning any records check
information on either Mayville or the vehicle, Trooper Mackleprang arrived with his
narcotic detector dog.
10. Once Trooper Mackleprang arrived, Trooper Tripodi briefly informed him about what
had occurred. Trooper Mackleprang then asked Mayville to exit the vehicle so that he
could run his dog around the car. Mayville refused.
11. Trooper Mackleprang observed that Mayville had delayed reactions, “almost like a blank
stare,” which caused him to suspect that Mayville was impaired.
12. Trooper Macklprang requested Trooper Tripodi’s presence. Mayville exited the vehicle,
and Trooper Tripodi patted Mayville down to check for weapons. Trooper Tripodi
instructed Mayville to stand on the side of the road a few feet in front of Mayvile's
vehicle.
13. The dog sniffed around the vehicle and alerted to the presence of narcotics.
14. Shortly after the dog had alerted to the presence of narcotics in the vehicle, dispatch
returned the information about Mayville and his vehicle, indicating that he had a criminal
record.
15. Trooper Mackleprang explained to Mayville that his dog had indicated to the odor of
narcotics, at which point Mayville stated “there’s no way, there’s no way.” The troopers
explained that they were going to search the vehicle and moved Mayville to Trooper
Tripodi’s vehicle.

Page 3 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 4 of 14

16. The troopers conducted a search and found two handguns and a homemade suppressor
inside the engine area (one wrapped in a cloth bag, another vacuum sealed with the
suppressor); a yellow plastic container with three packages of methamphetamine, totaling
approximately one pound (453 grams) behind the carpeted wall of the trunk on the
passenger side; and another vacuum sealed package behind the carpeted wall with a scale
and one ounce (28 grams) of heroin.
17. After finding the firearms and the suppressor, the troopers placed Mayville under arrest.
18. Mayville’s blood was drawn at the station. He tested positive for methamphetamine in his
bloodstream.
ANALYSIS
Mayville seeks to exclude the evidence discovered in his car under the Fourth
Amendment, Utah’s GRAMA statute, and the Privileges and Immunities Clause. The court
addresses each of these arguments in turn.
I.

THE FOURTH AMENDMENT

The Fourth Amendment to the U.S. Constitution provides that “[t]he right of the people
to be secure in their houses, papers, and effects, against unreasonable searches and seizures, shall
not be violated.” U.S. CONST, amend. IV. The issue presented in this case is whether Mayville’s
seizure by state troopers, which led to the discovery of the drug and firearm evidence, was
reasonable.
Because Mayville was speeding, Trooper Tripodi’s decision to initiate a traffic stop was
constitutionally sound. Mayville argues, however, that the troopers violated his Fourth
Amendment rights by unreasonably extending the length of the traffic stop, allowing the troopers

Page 4 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 5 of 14

time to run a narcotics dog around his car. For two independent reasons, the court determines
that the troopers did not unconstitutionally extend the traffic stop.
A. The Scope of the Traffic Stop
First, the court must determine whether the troopers unreasonably extend the length of
the traffic stop. In analyzing the reasonableness of the length of detention, courts focus on two
factors (1) “whether the officer’s action was justified at its inception,” and (2) “whether it was
reasonably related in scope to the circumstances which justified the interference in the first
place.” United States v. Shareef 100 F.3d 1491 (10th Cir. 1996). A court reviews the actions of
the police and the reasonableness of the stop under the totality of the circumstances. United
States v. Hunnicutt, 135 F.3d 1345, 1349-50 (10th Cir. 1998).
Mayville argues that the troopers unconstitutionally prolonged the traffic stop until the
drug dog arrived. He contends that but for this unconstitutional extension of the stop, the drug
dog would not have alerted and the troopers would not have had probable cause to search his
vehicle.
The troopers, however, did not unconstitutionally extend the traffic stop. “[T]he tolerable
duration of police inquiries in the traffic-stop context is determined by the seizure’s ‘mission’—
to address the traffic violation that warranted the stop, and attend to related safety concerns.”
Rodriguez v. United States, 135 S. Ct. 1609, 1614 (2015) (citations omitted). In addition to
addressing the violation, an officer may also conduct “ordinary inquiries incident to [the traffic]
stop.” Id. at 1615 (alteration in original) (citation omitted). “Typically such inquiries involve
checking the driver’s license, determining whether there are outstanding warrants against the
driver, and inspecting the automobile’s registration and proof of insurance.” ld.\ accord
4 Wayne R. LaFave, Search and Seizure § 9.3(c) (5th ed. 2016) (“This kind of checking of

Page 5 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 6 of 14

government records incident to a ‘routine traffic stop,’ which usually takes a matter of minutes,
is well-established as a part of the ‘routine,’ and has consistently been approved and upheld by
both federal and state courts.” (footnotes omitted)). These incidental inquiries do not
unconstitutionally prolong the stop.
Here, Trooper Tripodi requested that dispatch check for outstanding warrants and
perform a triple-I check to see if Mayville had a criminal history. The warrants check is
explicitly authorized by the Supreme Court as one of the ordinary inquiries incident to a traffic
stop that does not improperly extend the stop. The question here is whether the triple-I check is
also an ordinary inquiry incident to the traffic stop.
The Tenth Circuit has not discussed at great length the use of criminal background checks
during routine traffic stops. But the cases that do specifically mention background checks include
them with other routine electronic records searches incident to traffic stops. In United States v.
Lyons, for example, the Tenth Circuit held that because an officer had initiated a valid traffic
stop, he “could temporarily detain [the motorist], while requesting his driver’s license and
vehicle registration, running a criminal history check and issuing him a warning ticket.” 510 F.3d
1225, 1235 (10th Cir. 2007). And in United States v. Holt, an en banc panel of the Tenth Circuit
held that a “motorist may be detained for a short period while the officer runs a background
check to see if there are any outstanding warrants or criminal history pertaining to the motorist
even though the purpose of the stop had nothing to do with such prior criminal history. The
justification for detaining a motorist to obtain a criminal history check is, in part, officer safety'.”
264 F.3d 1215, 1221 (10th Cir. 2001) (en banc). In dicta, United States v. McRae further
explained the justification for the use of criminal background checks as part of a routine traffic
stop:

Page 6 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 7 of 14

Triple I checks are run largely to protect the officer. Considering the tragedy of
the many officers who are shot during routine traffic stops each year, the almost
simultaneous computer check of a person's criminal record, along with his or her
license and registration, is reasonable and hardly intrusive.
81 F.3d 1528, 1535 n.6 (10th Cir. 1996).
Thus, the Tenth Circuit has decided that criminal background checks, such as the triple-I,
are part of the routine records checks that are incident to a routine traffic stop. Such records
checks do not unconstitutionally extend the scope of the stop.
In this case, moreover, there is no indication that the triple-I check extended the stop.
Trooper Tripodi testified that he radioed dispatch to request both a warrants check and a criminal
background check. Nothing in the evidence presented to the court suggested that the triple-I
portion of the records check delayed dispatch’s response to Trooper Tripodi’s inquiry. Thus,
there is no indication that the criminal background check actually caused any extension of the
traffic stop.
In sum, the court finds that Officer Tripodi did not unconstitutionally extend the traffic
stop by conducting a records check pursuant to the valid stop of Mayville’s car. Because the drug
sniff and indication by the drug dog occurred during this period of time, the subsequent search
and discovery of evidence in the car did not violate Mayville’s Fourth Amendment rights.1 See
Illinois v. Caballes, 543 U.S. 405, 409 (2005) (“[TJhe use of a well-trained narcotics-detection
dog—one that ‘does not expose noncontraband items that otherwise would remain hidden from

' After the drug dog indicated, Trooper Mackleprang signaled to Trooper Tripodi. Soon
thereafter, dispatch contacted Trooper Tripodi and notified him that the records check was
complete. Trooper Tripodi quickly confirmed that Trooper Mackleprang was signaling that the
dog had indicated before responding to the radio transmission from dispatch. Mayville suggests
that the delay of a few seconds in Officer Tripodi’s response to dispatch constituted an
unconstitutional extension of the stop. But once the dog indicated, Trooper Mackleprang had
sufficient probable cause to further detain Mayville and search his car. The time that it took to
communicate this development to Trooper Tripodi did not unconstitutionally extend the traffic
stop.
Page 7 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 8 of 14

public view,’—during a lawful traffic stop, generally does not implicate legitimate privacy
interests.” (citation omitted)).
B. Reasonable Suspicion to Investigate Mayville ’s Potential Impairment
In the alternative, the troopers possessed reasonable suspicion to prolong the traffic stop
in order to determine whether Mayville was incapacitated or inebriated. See United States v.
West, 219 F.3d 1171, 1176 (10th Cir. 2000) (“A driver must be permitted to proceed after a
routine traffic stop if a license and registration check reveal no reason to detain the driver unless
the officer has reasonable articulable suspicion of other crimes or the driver voluntarily consents
to further questioning.”). In this case, Trooper Tripodi and Trooper Mackleprang noted
Mayville’s demeanor, his inability to focus, his difficulty in answering simple questions, as well
as the lack of paperwork for the vehicle. As Trooper Tripodi stated, he believed that Mayville
“had some impairment issues.”

The troopers were therefore justified in continuing their

investigation to determine whether Mayville was driving under an impaired state. Indeed the
trooper’s suspicions were later confirmed when a subsequent blood draw tested positive for
methamphetamine.
Mayville argues that the court should disbelieve the trooper’s testimony regarding
indications of impairment because the evidence shows that that Trooper Tripodi and Trooper
Mackleprang were stopping cars that night with the purpose of looking for drugs. Mayville
argues that because the troopers had this purpose in mind, they only manufactured their
observations of impairment in order justify a search of the vehicle.
The court rejects this argument. The court had the opportunity to assess Trooper Tripodi
and Trooper Mackleprang’s demeanor when they testified and finds that they were credible.

Page 8 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 9 of 14

Additionally, their testimony is corroborated by a subsequent test that showed that Mayville did
in fact have methamphetamine in his system.
Mayville also suggests that because the troopers did not begin their investigation of his
impairment before the drug dog indicated, the trooper's suspicions either could not extend the
stop or should be disbelieved. But the troopers could properly complete the records check
pursuant to the traffic stop before investigating their suspicions about Mayville’s impairment.
Indeed, Trooper Tripodi testified that he backed up his police car, likely because he wanted to
give himself room to conduct a field sobriety test.
Thus, even if the troopers had slightly prolonged the traffic stop, they did so based on
their reasonable concern that Mayville was driving while impaired. Because the troopers had
reasonable suspicions that permitted them to further detain Mayville, the drug dog indication and
subsequent search of his car did not violate his Fourth Amendment rights.
II.

GRAMA

Next, Mayville argues that the evidence should be suppressed because the state of Utah
violated its GRAMA statute when it provided his criminal records pursuant to the triple-I request
made by Trooper Tripodi. The court rejects this argument for two reasons.
First, state officials did not violate the GRAMA statute by providing criminal records
pursuant to Trooper Tripodi’s request. The GRAMA statute restricts Utah agencies from
revealing to the public certain protected records. Mayville points to Utah Code section
63G-2-305(31), which defines protected records to include “records provided by the United
States or by a government entity outside the state that are given to the governmental entity with a
requirement that they be managed as protected records if the providing entity certifies that the

Page 9 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 10 of 14

record would not be subject to public disclosure if retained by it.” Mayville argues that because a
triple-I check is provided by the FBI, it is a protected document under this provision.
Mayville has not made a showing that the FBI requires triple-I checks to be managed as
protected documents. But the court need not address Mayville’s argument that the triple-I
became a protected document when the FBI provided it to Trooper Tripodi or decide whether
any Utah agency unlawfully disclosed a protected document in this case. Utah Code section
63G-2-206 lists several circumstances under which a Utah agency may disclose a protected
document. This statute provides: “Records that may evidence or relate to a violation of law may
be disclosed to a government prosecutor, peace officer, or auditor.” UTAH CODE § 63G-2-206(9).
Mayville’s Utah criminal records by definition “relate to a violation of law,” and Trooper
Tripodi is a peace officer. Therefore, even if the triple-I background check was a protected
document, no Utah agency violated GRAMA by providing Mayville’s criminal record to the FBI
or to Trooper Tripodi.
Second, even if Mayville could show that the GRAMA statute had somehow been
violated, the remedy is not the exclusion of evidence. The GRAMA statute provides criminal
penalties for a public employee who intentionally discloses a protected document. UTAH CODE
§ 63G-2-801. A party can also obtain an injunction to prevent disclosure. UTAH CODE § 63G-2802. But GRAMA does not include as a remedy the exclusion of evidence in a criminal
proceeding. Because GRAMA enumerates the remedies available for a violation, there is no
cause for this court to announce an exclusionary rule as a judicially-created remedy.
For these reasons, Utah’s GRAMA statute is not a basis for excluding the drug and
firearm evidence discovered in Mayville’s car.

Page 10 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18

in.

Page 11 of 14

The Privileges and Immunities Clause

Finally, Mayville argues that the court should exclude the evidence against him pursuant
to the Privileges and Immunities Clause of the Constitution, which provides: “The'Citizens of
each State shall be entitled to all Privileges and Immunities of Citizens in the several States.”
This clause protects an individual’s right to travel among the various states. This right to travel
encompasses three different components:
It protects the right of a citizen of one State to enter and to leave another State, the
right to be treated as a welcome visitor rather than an unfriendly alien when
temporarily present in the second State, and, for those travelers who elect to
become permanent residents, the right to be treated like other citizens of that
State.
Saenz v. Roe, 526 U.S. 489, 500 (1999).
Mayville produced evidence that during the period of time that Trooper Tripodi was
patrolling 1-70, he mostly stopped cars with out-of-state license plates. From this evidence,
Mayville argues that Trooper Tripodi engaged in a pattern of pulling over cars registered in other
states. He asserts that this practice of selectively enforcing traffic law violations committed by
the citizens of other states deprived those travelers of the privileges and immunities enjoyed by
Utah citizens.
The government contests the inference of selective enforcement drawn by Mayville,
arguing that many out-of-state vehicles pass through the stretch of highway Trooper Tripodi was
patrolling. The court, however, need not address the factual question of whether Trooper
engaged in a pattern of pulling over out-of-state vehicles. Even if he had done so, such a pattern
would not violate the Privileges and Immunities Clause.
In State v. Chettero, the Utah Supreme Court addressed the same argument made by
Mayville. At least 95% of the vehicles pulled over by the trooper in that case bore out-of-state

Page 11 of 14

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18

Page 12 of 14

plates. State v. Chettero, 297 P.3d 582, 584 (Utah 2013). The trooper’s decision to stop so many
cars from other states was based on information that individuals were transporting a high volume
of marijuana recently harvested in California. The defendant claimed that the trooper who pulled
him over violated the second component of the right to travel—the right to be treated as a
welcome visitor—by engaging in a practice of selectively enforcing traffic laws. Id. at 585—86.
Noting that the cases that deal with this right indicate that it implicates “only the rights of non­
residents to exercise fundamental economic rights ... or to seek important services,” the Utah
Supreme Court concluded that the right to be treated as a welcome visitor did not apply to the
selective enforcement of traffic laws based upon out-of-state license plates. Id. at 586 (citing
Saenz, 526 U.S. at 501-02). This court agrees that the second component of the right to travel
has no application here.
The first component of the right to travel—the right to enter and leave another state—is
likewise inapplicable. The Supreme Court has held that this right is violated when a state erects
actual barriers to entry. See Edwards v. California, 314 U.S. 160, 174 (1941) (finding a statute to
be unconstitutional where its “express purpose and inevitable effect [was] to prohibit the
transportation of indigent persons across the California border”). Being legally stopped for a
traffic violation while travelling through a foreign state does not constitute such “an ‘actual
barrier’ to interstate travel.” Maryland State Conference ofNAACP Branches v. Maryland Dep’t
of State Police, 72 F. Supp. 2d 560, 568 (D. Md. 1999) (holding that a traffic stop did not violate
the first component of the right to travel).
Mayville does not cite any cases that support the proposition that the Privileges and
Immunities Clause prohibits police officers from selectively enforcing traffic violations
committed by out-of-state travelers. The only authority he cites, Saenz, 526 U.S. 489, 502-04,

Page 12 of 14

&

Case 2:16-cr-00266-JNP Document 134 Filed 03/07/18 Page 13 of 14

addresses restrictions on state benefits provided to new residents. It does not speak to traffic
stops of citizens of other states. Absent any authority for the proposition that selective traffic
stops violate the right to travel embraced by the Privileges and Immunities Clause, and with
persuasive authority to the contrary, the court concludes that Trooper Tripodi did not violate this
clause of the Constitution.
Finally, even if Mayville could make out a claim, he has not provided any authority or
argument for the proposition that the exclusionary mle applied to violations of the Fourth
Amendment also applies to violations of the Privileges and Immunities Clause. Mayville cites
Mapp v. Ohio, but that case specifically holds that the exclusionary rule must be applied to
violations of the Fourth Amendment, not to any violation of any provision of the Constitution.
367 U.S. 643, 655 (1961). Absent any authority for extending the exclusionary rule to violations
of the Privileges and Immunities Clause, the court declines to do so here. See United States v.
Burnett, No. 4:06CR00271-01 SWW, 2007 WL 2711021, at *2 (E.D. Ark. Sept. 13, 2007)
(“[E]ven if [an officer] violated [a motorist’s] right to travel [by targeting out-of-state motorists],
suppression of evidence pursuant to the exclusionary rule is a remedy for violations of the Fourth
Amendment, and the Court declines to extend the mle as a remedy for other constitutional
violations.”).
The court, therefore, rejects Mayville’s argument that the Privileges and Immunities
Clause requires the suppression of the evidence recovered from his car.
CONCLUSION
For the foregoing reasons, the court DENIES Mayville’s motion to suppress.

DATED March 7, 2018

Page 13 of 14

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF UTAH

UNITED STATES OF AMERICA,

Case No. 2:16-CR-266 JNP
MEMORANDUM DECISION
AND ORDER DENYING
DEFENDANT’S MOTION TO
SUPPRESS

Plaintiff,
vs.

«

JOHN ELISHA MAYVILLE,
District Judge Jill N. Parrish
Defendant.

I

Defendant John Elisha Mayville filed a motion to suppress. Following an
evidentiary hearing, the parties briefed the legal issues raised by the motion. Mr.
Mayville argues that the traffic stop conducted by the Utah Highway Patrol
troopers was unreasonably prolonged, thereby resulting in a Fourth Amendment
violation and a warrantless search. Based on the evidence and case law relating to
these issues, the court hereby DENIES Mr. Mayville’s motion to suppress. [Docket
40]

APPENDIX C

Case 2:,16-cr-00266-JNP Document 46 Filed 04/03/17 Page 2 of 9

L FINDINGS OF FACT
1. On May 6, 2016, Trooper Jason Tripodi stopped a red Audi for speeding on
1-70. It was going 71 miles per hour in a 60-miles-per-hour zone. i •
2. Trooper Tripodi approached the vehicle, made contact with Mr. Mayville,
and spoke to him about his speeding.2 Mr. Mayville stated that he was
travelling to Grand Junction, Colorado, from Lake Havasu, Arizona. 3
3. Trooper Tripodi’s initial contact with Mr. Mayville lasted a couple of
minutes.4

During this initial contact, Trooper Tripodi asked for Mr.

Mayville’s license, registration, and proof of insurance.5

While Mr.

Mayville searched for these documents, Trooper Tripodi observed that he
“had a lot of trouble coming up with that requested paperwork.”6 Trooper
Tripodi noted that the length of time he spent at the passenger side window
was due to Mr. Mayville searching for the paperwork.7 Trooper Tripodi
observed that Mr. Mayville seemed like he “was drowsy, or something was
wrong, something was up.”

o

Mr. Mayville “seemed confused almost” and

Trooper Tripodi noticed that Mr. Mayville “wasn’t able to multitask like a

Tr. at 7:25-8:25. Additionally, references are made to UHP Trooper Tripodrs dash cam video, entered into
evidence as Exhibit 1. It will be referred to as “Video, at___." The times listed are approximations.
7 Tr. at 10:16-23; Video, at 1:46:45-1:47:14.
5 Tr. at 10:24-11:5; Video, at 1:46:54-1:47:35.
4 Tr. at 11:6-8.
5 Id. at 11:9-15.
6 Id.
1 Id.; Id. at 27:23-28:12.
* Id. at 11:16-18.
Page 2 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 3 of 9
\

normal individual would be able to.’59 Trooper Tripodi asked Mr. Mayville
on multiple occasions if he was okay, based on his interaction with him.10
4. Trooper Tripodi became concerned that Mr. Mayville may be impaired or
drowsy.11
5. Trooper Tripodi asked Mr. Mayville if he would mind coming back to his
vehicle to talk to him while he filled out his paperwork.12 Mr. Mayville
declined this invitation.
6. Trooper Tripodi returned to his vehicle and began filling out the paperwork
for the stop.13 He also radioed dispatch in order to run a records check on
Mr. Mayville. Trooper Tripodi requested that dispatch run Mr. Mayville5s
license and check for warrants.14 Trooper Tripodi conducted this check
through dispatch because the UHP computers in patrol cars cannot conduct a
complete warrant check.15
7. About a minute later, Trooper Tripodi radioed for a Narcotic Detector Dog
(NDD) and handler.16

9 Id. at 11:18-12:1.
10 Tr. at 13:7-12; 27:19-22; 28:13-18; Video, at 1:47:50 (first time); 1:49:26-35 (second time); 1:49:35-40 (Mr.
Mayville:s response about being tired); 1:52:12 (third time); 1:52:15-55 (Trooper Tripodi remarking that Mr.
Mayville seemed really out of it).
11 Tr. at 12:16-25. Intoxicated driving, or drowsy driving, are both concerns for UHP and the motoring public in
general, as testified to by Trooper Tripodi. Id. at 13:1-6.
12 Tr. at 13:13-18; Video, at 1:50:40.
13 Tr. at 13:19-22; 14:13-18; 28:19-24.
uId. at 13:22-14:12; 28:25-29:5; 41:24-42:19; Video, at 1:53:25-1:54:00.
15 Tr. at 14:3-12.
16 74 at 14:19-15:6; 26:11-23; 29:22-30:2; Video, at 1:55:16-44.
Page 3 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 4 of 9

8. After radioing dispatch for records and for a NDD, Trooper Tripodi
continued filling out a citation for Mr. Mayville, including “attempting to
figure out whose vehicle it was because [Mr. Mayville] had no registration
paperwork.”

17

9. Approximately four minutes later, prior to dispatch returning any records
check information on either Mr. Mayville or the vehicle, Trooper
Mackleprang arrived with his NDD.18
10. Once Trooper Mackleprang arrived, Trooper Tripodi briefly informed him
about what had occurred.19 Trooper Mackleprong then walked up to Mr.
Mayville’s car and asked him to exit the vehicle so that he could run his
NDD around the car.

Mr. Mayville refused.

on

Trooper Mackleprang

observed that Mr. Mayville had delayed reactions, “almost like a blank
stare,” which caused him to suspect that Mr. Mayville was impaired.

71

11. Trooper Macklprang requested Trooper Tripodi’s assistance.22 The two
troopers convinced Mr. Mayville to exit the vehicle, and Trooper Tripodi
patted Mr. Mayville down to check for weapons. Trooper Tripodi instructed

17 Tr. at 30:13-31:6. Trooper Tripodi attempted to ascertain this information by running either the plate or the VEN
through his computer. Id.
18 Tr. at 15:7-11; 57:18-58:18; Video, at 1:59:54. NDD Hasso is a trained dog who can detect the odors of
marijuana, methamphetamine, heroin and cocaine. Tr. at 48:20-49:17. He has undergone extensive certification and
trainings, including bi-weekly current trainings. Id.
19 Tr. at 15:15-19; 31:9-15; 50:4-11; 58:19-59:6; Video, at 2:00:20-30.
20 Tr. at 15:18-23; 31:19-22; 50:4-51:11; Video, at 2:00:35-02:35.
21 Tr. at 66:21-68:10.
22 Tr. at 15:25-16:8; 51:12-22; Video, at 2:02:40-03:15. Records checks had not yet returned from dispatch. Tr. at
16:9-11.
Page 4 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 5 of 9

Mr. Mayville to stand on the side of the road a few feet in front of the
vehicle. 23
12. The NDD sniffed around the vehicle and alerted to the presence of
narcotics.24
13. After the NDD had alerted to the presence of narcotics in the vehicle,
dispatch returned the information about Mr. Mayville and his vehicle,
♦

oc

indicating that Mr. Mayville had a criminal record.

14. Trooper Mackleprang explained to Mr. Mayville that his NDD had
indicated to the odor of narcotics, at which point Mr. Mayville stated,
“there’s no way, there’s no way. ;?26 The troopers explained that they were
going to search the vehicle and moved Mr. Mayville to Trooper Tripodi’s
vehicle. 27
15. The troopers conducted a search and found two handguns and a homemade
suppressor inside the engine area (one wrapped in a cloth bag, another
vacuum sealed with the suppressor); a yellow plastic container with three
packages of methamphetamine, totaling approximately one pound (453
grams) behind the carpeted wall of the trunk on the passenger side; and

13 Tr. at 16:18-17:7.
24 Tr. at 31:23-32:3; 51:19-54:24; Video, at 2:04.
“ Tr. at 22:8-24; 32:4-10; Video, at 2:05:45-2:06:00. The Triple III check from dispatch informed Trooper Tripodi
about Mr. Mayville's criminal history'.
26 Video, at 2:06:10-2:07.
27 Tr. at 32:11-15; Video, at 2:06:30-45.
Page 5 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 6 of 9

another vacuum sealed package behind the carpeted wall with a scale and
one ounce (28 grams) of heroin.28
16. After finding the firearms and the suppressor, the troopers placed Mr.
Mayville under arrest.29
17. Mr. Mayville’s blood was drawn at the station. He tested positive for
methamphetamine in his bloodstream.30
II.

CONCLUSIONS OF LAW

A. The Troopers Did Not Unreasonably Prolong the Traffic Stop.
Mr. Mayville concedes that the initial traffic stop did not violate his Fourth
Amendment rights. Instead, he argues that the troopers unconstitutionally
prolonged the stop until the NDD arrived. Mr. Mayville contends that but for this
unconstitutional extension of the stop, the NDD would not have alerted and the
troopers would not have had probable cause to search his vehicle.
The troopers did not unconstitutionally extend the traffic stop! “[T]he
tolerable duration of police inquiries in the traffic-stop context is determined by the
seizure’s ‘mission’—to address the traffic violation that warranted the stop, and
attend to related safety concerns.” Rodriguez v. United States, 135 S. Ct. 1609,
1614 (2015) (citations omitted). In addition to addressing the violation, an officer
may also conduct “ordinary inquiries incident to [the traffic] stop.” Id. at 1615
28 Tr. at 17:22-22:7; 32:16-22; 55:21-57:11; Video, at 2:08:00-26:35.
29 Tr. at 22:15-24; Video, at 2:26:30-27:15.
30 Tr. at 47:1-5; 57:13-17; 69:5-8. •
Page 6 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 7 of 9

(alteration in original) (citation omitted). These incidental inquiries do not
unconstitutionally prolong the stop. “Typically such inquiries involve checking the
driver’s license, determining whether there are outstanding warrants against the
driver, and inspecting the automobile’s registration and proof of insurance.” Id.;
accord 4 WAYNE R. LaFave, SEARCH AND SEIZURE § 9.3(c) (5th ed. 2016) (“This
kind of checking of government records incident to a ‘routine traffic stop,’ which
usually takes a matter of minutes, is well-established as a part of the ‘routine,’ and
has consistently been approved and upheld by both federal and state courts.”
(footnotes omitted)).
Here, Trooper Tripodi radioed dispatch to run Mr. Mayville’s license and to
check for outstanding warrants. While Trooper Tripodi was waiting for the results
of the license and warrants check, Trooper Mackleprang circled the perimeter of
the car with a NDD, which alerted upon detecting the scent of illicit drugs inside of
the vehicle. The dog sniff did not violate Mr. Mayville’s privacy rights. See Illinois
v. Caballes, 543 U.S. 405, 409 (2005) (“[T]he use of a well-trained narcotics-

detection dog—one that ‘does not expose noncontraband items that otherwise
would remain hidden from public view,’—during a lawful traffic stop, generally
does not implicate legitimate privacy interests.” (citation omitted)). And it is
well-established that the routine records check did not unconstitutionally extend
the traffic stop. Therefore, because the dog sniff occurred while Trooper Tripodi

Page 7 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 8 of 9

was still waiting for dispatch to conduct the routine license and warrants check, the
troopers did not violate Mr. Mayville’s Fourth Amendment rights.
B. In the Alternative, the Troopers Had Reasonable Suspicion to Continue
their Investigation Based on Mr. Mayville’s Demeanor.
In the alternative, the troopers possessed reasonable suspicion to prolong the
traffic stop in order to determine whether Mr. Mayville was incapacitated or
inebriated.
A “driver must be permitted to proceed after a routine traffic stop if a license
and registration check reveal no reason to detain the driver unless the officer has
reasonable articulable suspicion of other crimes or the driver voluntarily consents
to further questioning.” United States v. West, 219 F.3d 1171, 1176 (10th Cir.
2000). In this case, Trooper Tripodi and Trooper Mackleprang noted Mr.
Mayville’s demeanor, his inability to focus, his difficulty in answering simple
questions. As Trooper Tripodi stated, he believed that Mr. Mayville “had some
impairment issues. »31

Trooper Mackleprang independently came to the same

conclusion.32
Based upon the testimony of these two troopers, whom the court found to be
credible, the court finds that the troopers had a reasonable articulable suspicion that
Mr. Mayville was driving while impaired. Accordingly, the troopers were justified

31 Tr. at 14:22-15:3; 16:18-24.
32 Tr. at 66:21-68:10.
Page 8 of 9

Case 2:16-cr-00266-JNP Document 46 Filed 04/03/17 Page 9 of 9

in continuing their investigation to- determine whether Mr. Mayville had been
driving in an impaired state. For this independent reason, the troopers did not
violate Mr. Mayville’s Fourth Amendment rights by continuing to detain him
while they investigated further.
III. CONCLUSION
For the foregoing reasons, the court DENIES Mr. Mayville’s motion to
suppress. [Docket 40]

V -'*■

49 days remain on the Speedy Trial clock. The court, therefore, sets the trial
in this case for May 22, 2017 at 8:30 am.
DATED April 3, 2017

HONORALBE JILL N. PARRISH
United States District Court Judge

Page 9 of 9

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal!
Tenth Circuit

FOR THE TENTH CIRCUIT

June 19, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 19-4008
(D.C. No. 2:16-CR-00266-JNP-1)
(D. Utah)

JOHN ELISHA MAYVILLE,
Defendant - Appellant.

ORDER

Before BACHARACH, BALDOCK, and MURPHY, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

APPENDIX D

